HHS/OIG, Audit -"Review of the Hospital Compliance With Medicare's Postacute Care Transfer Policy During Fiscal Years 2001 and 2002,"(A-04-04-03000)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Hospital Compliance With Medicare's Postacute Care Transfer Policy During Fiscal
Years 2001 and 2002," (A-04-04-03000)
April 11, 2005
Complete
Text of Report is available in PDF format (471 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this nationwide review was to determine whether acute care hospitals complied with
Medicares postacute care transfer policy during fiscal years (FYs) 2001 and 2002.  We found that
hospitals did not always comply with the transfer policy.  Of 400 claims sampled, 381 were improperly
coded as discharges to home rather than transfers to postacute care.  Potential overpayments to
hospitals for these claims totaled $1,034,588.  The potential overpayments occurred because some
hospitals did not have the necessary controls to ensure the accuracy of discharge status codes, and
CMS lacked adequate payment system edits to prevent these overpayments.  As a result, we estimate
that Medicare overpaid hospitals approximately $72.4 million in FYs 2001 and 2002.  We recommended
that CMS: (1) instruct the fiscal intermediaries to recover, as appropriate, the $1,034,588 in potential
overpayments identified in our sample; (2) instruct the fiscal intermediaries to review the remaining
claims in our sampling universe and identify and recover additional overpayments; and (3) monitor hospitals
that have a high number of claims adjusted as a result of recently implemented system edits and perform
followup reviews, as appropriate, at specific hospitals.  CMS agreed to implement the first and
third recommendations.  In regard to the second recommendation, CMS said that it was working on
a strategy to identify and collect the remaining overpayments.